No. 19-454

 

 

IN THE

Supreme Court of the United States

DONALD J. TRUMP, PRESIDENT OF THE UNITED
STATES, ET AL.,
Petitioners,
Vv.

COMMONWEALTH OF PENNSYLVANIA, ET AL,
Respondents.

On Writ of Certiorari to the United States Court
of Appeals for the Third Circuit

BRIEF OF PROFESSORS OF CIVIL PROCEDURE
AND FEDERAL COURTS AS AMICI CURIAE IN
SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,524 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 8, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
